CERTIFICATE OF SERVICE
NO. TBD
Richard Spinnenweber, Et al.
Petitioners,
v.
Dan Williams
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the RICHARD
SPINNENWEBER, ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Matthew Carson
Sniffen & Spellman, P.A.
123 North Monroe Street
Tallahassee, FL 32301
(850) 205-1996
mcarson@sniffenlaw.com
Counsel for Dan Williams

Lucas DeDeus

December 21, 2020
SCP Tracking: Printy-1804 Miccosukee Commons Drive-Cover White

